U.S. Department of the Interior
Office of Inspector General




          SURVEY REPORT


 OFFSHORE CIVIL PENALTIES PROGRAM,
   MINERALS MANAGEMENT SERVICE

              REPORT NO. 99-I-374
                 MARCH 1999
                                                                       C-IN-MOA-001-96-B


              United States Department of the Interior
                            OFFICE OF INSPECTOR GENERAL
                                     Washington, DC. 20240
                                                                MAR   3 0 ;:gg
                                 SURVEY REPORT
Memorandum

To:        Director, Minerals Management Service

From:      Robert J. Williams rl$%*Lt /’ ;&45&.-Q
           Assistant Inspector General for Budits

Subject:   Survey Report on the Offshore Civil Penalties Program, Minerals
           Management Service (No. 99-I-374)

                                 INTRODUCTION
This report presents the results ofour survey ofthe Minerals Management Service’s offshore
civil penalties program. The objective of the survey was to determine whether (1) civil
penalties were assessed in a fair and consistent manner, (2) documentation in the assessment
files supported the reviewing officers decisions, and (3) civil penalty referrals were made
as appropriate by inspectors, In addition, the Service requested that we review its procedures
for referring criminal cases to the Office of Inspector General. In that regard, we plan to
issue a separate report on the referral of criminal cases.

BACKGROUND

The Minerals Management Service comprises two specialized programs: the Royalty
Management Program and the Offshore Minerals Management Program. All mineral
revenue functions are centralized within the Royalty Management Program, which collects,
accounts for, and distributes revenues generated from Federal and Indian lands and the Outer
Continental Shelf. The Service’s Offshore Minerals Management Program conducts leasing
activities for and provides oversight of mineral operations on the Nation’s Outer Continental
Shelf. The headquarters for the Offshore Minerals Management Program is located in
Hemdon, Virginia, and regional offices are located in Anchorage, Alaska; Camarillo,
California; and New Orleans, Louisiana. The Offshore Program is responsible for all phases
of offshore oil and gas activity, including the regulation of all exploration, development, and
production activities on more than 7,100 active leases.

The goal of the civil penalties program is to encourage operator compliance with applicable
statutes and regulations to ensure safe and environmentally sound operations on the Outer
Continental Shelf. For example, the Service’s OCS (Outer Continental Shelf) Civil/Criminal
Penalties Program Guidebook dated December 1992 states: “The penalty assessed for
spilling oil must be large enough to induce the spiller to take steps to prevent future spills.
Thus the penalty should be substantial enough to encourage expenditures for compliance and
to discourage further violations.” The 1978 Amendments to the Outer Continental Shelf
Lands Act gave the Service the authority to assess civil penalties for violations of statutes
and regulations that are designed to help ensure safe and environmentally sound offshore oil
and gas operations. However, this authority was limited by a provision that required the
Service to provide a period of time to a lessee to correct a violation before a penalty is
imposed. The Oil Pollution Act of 1990 (Public Law 101-380) eliminated the requirement
that a correction period should be provided before penalties could be assessed in cases where
the failure to comply with applicable statutes and regulations “constituted a threat of serious,
irreparable, or immediate harm or damage to life (including fish and other aquatic life),
property, any mineral deposit, or the marine, coastal, or human environment.” The Oil
Pollution Act also increased the maximum amount of civil penalties assessable from $10,000
per violation per day to $20,000 per violation for each day of noncompliance and required
the adjustment of the maximum penalty at least every 3 years to reflect any increases in the
Consumer Price Index. Accordingly, the Service increased the maximum civil penalty to
$25,000 per day effective October 7, 1997.

As of September 30, 1997, the Service’s Gulf of Mexico Region had 50 inspectors in four
district and two subdistrict offices in Louisiana and Texas (see Appendix 1). These
inspectors conducted on-site inspections of more than 3,800 platforms and approximately
15,000 oil and gas wells in the Gulf of Mexico. These inspections included monitoring
offshore production and drilling operations and testing safety and pollution prevention
equipment, which prevents or minimizes the effects of well blowouts, fires, spillage, and
other major accidents. When Service inspectors find violations ofthe regulations, they issue
Incidents of Noncompliance to the operator of the facility. The Service has developed a list
of potential Incidents of Noncompliance that identifies approximately 600 potential
violations and has established written guidelines concerning the regulations, inspection
procedures, and instructions to be used when noncompliance is noted. Depending on the
severity of the violation, one of the following three enforcement orders is issued:
(1) warning the operator of the violation and ordering corrective action, (2) shutting in’
specific component equipment until corrective action is taken, or (3) shutting in the entire
facility until required corrective action is taken.

If an inspector believes that the violation warrants further review, the inspector is required
by the Civil/Criminal Penalties Program Guidebook to discuss the violation with the
supervisory inspector. If the supervisor agrees that a violation warrants a civil penalty, the
potential civil action is discussed with the district supervisor. The district supervisor initiates
the Compliance Review Form, a summary of investigation, and a recommendation for
initiation of civil penalty proceedings and forwards these and all other pertinent
documentation to the regional supervisor for approval. The regional supervisor reviews the


‘To temporarily close down a producing well, platform, or other production equipment for repair or
maintenance.

                                                 2
information, and if further action is warranted, he forwards all of the documentation to the
Regional Director.

Civil penalty cases are formally established when the Regional Director determines that the
evidence presented warrants a civil penalty and refers the Compliance Review Form, the
Incident ofNoncompliance, and other documents related to the case to the reviewing officers
in the Gulf of Mexico Regional Office. The Regional Office has three reviewing officers,
who are responsible for evaluating the merits of the referrals, determining whether civil
penalties are warranted, and assessing any subsequent fines. The amount of a fine is
determined in part through the use of the Service’s Generalized Matrix (see Appendix 2).
One axis of the matrix has three enforcement codes, one of which the inspector assigns when
the Incident of Noncompliance is issued. The other axis has three categories, one of which
is selected by the reviewing officer based on the seriousness of the threat or injury to
personnel or the environment and the operator’s prior compliance record. The amount of the
daily fine determined from the matrix is then multiplied by the number of days the operator
was in violation to arrive at the total amount of the civil penalty. The reviewing officers may
also consider mitigating factors when assessing fines, such as whether the company
cooperated in investigating the violation and whether it is able to pay the fine. The Service’s
Generalized Matrix is contained in the Service’s OCS (Outer Continental Shelf)
Civil/Criminal Penalties Program policy document dated January 1996. This policy
amended the Matrix contained in the Service’s Civil/Criminal Penalties Program Guidebook
dated December 1992.

Since the enactment of the Oil Pollution Act of 1990 through fiscal year 1997 (September 30,
1997) 143 civil penalty case files have been referred to the reviewing officers in the Gulf of
Mexico Regional Office. Of the 143 case tiles, 90 cases involving penalties have been
closed, with fines of approximately $1.2 million being collected; 17 cases have been
dismissed; 32 cases have not been decided; and 4 cases have been appealed. Final
assessments have ranged from less than $1,000 to more than $70,000. Our review disclosed
that the most common types of violations approved for civil penalty assessments involved
surface and/or subsurface safety valves that were bypassed or were inoperative, emergency
shutdown systems that were malfunctioning, or other safety procedures that were not
followed by the operator.

SCOPE OF SURVEY

Our review was conducted in accordance with the “Government Auditing Standards,” issued
by the Comptroller General of the United States. Accordingly, we included such tests of
records and other auditing procedures that we considered necessary under the circumstances.
Audit survey work was performed at the Service’s Offshore Minerals Management
Headquarters Office; the Gulf of Mexico Regional Office in New Orleans, Louisiana; and
district offices in Texas, Louisiana, and California. (the offices visited or contacted are in
Appendix 3).



                                               3
To accomplish our objective, we reviewed data related to Incidents ofNoncompliance issued
by inspectors as of the time of our review during August and September 1997. We prepared
detailed questionnaires, which were used in our interviews and discussions with 27 of the
50 field inspectors and their supervisors at the three district offices and the one subdistrict
office visited. The data obtained during these interviews were analyzed and summarized to
support conclusions in the Results of Survey section of this report. In addition, of the
90 closed civil penalty case files as of September 30, 1997, we judgmentally selected and
reviewed 26 case files in which reviewing officers’ final decisions were made as follows:
1 in 1993, 1 in 1995, 12 in 1996, and 12 in 1997. These case tiles represented 24 different
operators that had final assessments totaling more than $500,000.

As part of our review, we evaluated the system of internal controls related to civil penalty
case referrals and assessments. The internal control weaknesses we found are discussed in
the Results of Survey section of this report. Our recommendations, if implemented, should
improve the internal controls in this area.

We also reviewed the Departmental Report on Accountability for fiscal year 1996, which
includes information required by the Federal Managers’ Financial Integrity Act of 1982, and
the Service’s annual assurance statement for fiscal year 1996 to determine whether any
reported weaknesses were related to the objective and scope of our survey. Neither the
Accountability Report nor the Service’s assurance statement addressed the Service’s civil
penalties program.

PRIOR AUDIT COVERAGE

Neither the Office of Inspector General nor the General Accounting Office has issued any
audit reports during the past 5 years on the Service’s civil penalties program.

                             RESULTS OF SURVEY
Since the enactment of the Oil Pollution Act of 1990, the Minerals Management Service’s
Gulf of Mexico Region has developed and implemented a civil penalties program. However,
we identified areas where improvements in the program are needed. Specifically, reviewing
officers were not adequately documenting their penalty assessment decisions, and case files
were not reviewed by a supervisor to ensure that the substantial evidence requirements were
met. The Service’s Civil/Criminal Penalties Program Guidebook requires reviewing
officers’ conclusions for assessing civil penalties to be based upon “evidence in the record.”
Undocumented and unsupported assessment decisions can leave civil penalty decisions
vulnerable to reversal under appeal and lead to inconsistent penalty assessments, which could
also limit the effectiveness of the civil penalties program. In addition, our survey disclosed
that inspectors did not always make referrals for civil penalties when appropriate or make
referrals in a timely manner. The Minerals Management Service’s Civil/Criminal Penalties
Program Guidebook provides guidance for inspectors and their supervisors to use when they
determine whether to refer a violation for possible civil penalty and when to make the
referral. However, inspection supervisors did not ensure that inspectors were thoroughly

                                               4
knowledgeable of the civil penalties program and made referrals when appropriate. When
inspectors do not refer serious Incidents of Noncompliance for civil penalty or do not refer
them in a timely manner, the program is applied inconsistently and the program’s
effectiveness in promoting safe and environmentally sound operations in the Gulf of Mexico
is diminished. While the Service identified similar program weaknesses and initiated some
corrective actions as a result of its internal reviews, we believe that additional improvements
are needed.

Civil Penalty Assessments

The Service’s reviewing officers did not adequately document case files for civil penalty
assessments. We reviewed 26 of the 90 closed civil penalty case tiles that resulted in final
assessments and found that support for the determinations of lines was not contained in 24
of the case files reviewed. These 24 case tiles contained one or more supporting
documentation deficiencies, including case files that did not support the determination ofthe
category of the violation (21 cases), the enforcement code (2 cases), or a difference between
the assessed number of days and the number of days in the violation period (3 cases). In
addition, mitigating factors, which the reviewing officers considered when determining the
categories of violations in the Generalized Matrix (see Appendix 2) and when establishing
proposed and final assessment amounts, were not documented in the case files. Finally,
reviewing officers made assessments without properly considering the compliance history
of the operators.

The Service’s Civil/Criminal Penalties Guidebook states: “The Reviewing Officer’s decision
shall be in writing and shall include his/her conclusions and the basis for these conclusions.
Anv decision shall be based upon evidence in the record.” (Emphasis added.) The Service’s
OCS Civil/Criminal Penalties Program policy document states that reviewing officers should
consider an operator’s compliance history when determining a violation category in the
Generalized Matrix and when determining assessment amounts. District personnel are also
required by the policy document to provide an operator’s compliance history when making
referrals for civil penalties.

Based on our review of 26 case files, we found that only 5 files contained evidence that the
reviewing officer had considered an operator’s compliance history when determining an
assessment. Service personnel said that reviewing officers did not consider compliance
histories because the districts were not always including this information with the referral
or the information was incomplete. Of the 26 case files we reviewed, 6 did not contain any
of the required compliance history, 12 had a partial history, and 8 had a complete history.
We found that compliance histories were incomplete because inspectors preparing referrals
relied on incomplete Incident of Noncompliance tiles rather than on the Service’s more
accurate Technical Information Management System, which contains operator compliance
histories for all districts in the Gulf of Mexico.




                                              5
We believe that the reviewing officers need to ensure that case files contain written support
for (1) mitigating factors considered, (2) changes in data, and (3) selection of penalty
assessment category. For example:

          - In February 1995, the New Orleans District Office referred seven violations for
bypassing safety equipment for civil penalties. The civil penalty case worksheet indicated
that the operator had a poor compliance record, with at least 46 previous violations at this
facility in the prior 3 years, including 2 for bypassing safety devices and 5 for polluting
offshore waters. The District Office’s referral stated that the operator had a “total disregard
for the regulations” and noted that some of the violations “created a major threat to the
environment.” The reviewing officer classified six violations at the Category I level and one
violation at the Category II level but assessed all fines at the Category I level (the categories
are defined in Appendix 2). Category I is designated for violations that present the least
severe potential threat to human safety and the environment and for operators who have an
excellent or above average record of compliance. Neither the reviewing officer’s final
decision nor the case file identified any mitigating factors concerning the violations.
Concerning the decision, the reviewing officer told us that the violations could have been
classified more severely but were not because this was the operator’s first civil penalty case.
The reviewing officer assessed this operator a $50,000 penalty (the maximum amount
assessable for this category was $75,000). If the reviewing officer had classified all seven
of the violations at the Category II level and assessed Category II level fines based on the
operator’s poor compliance history, the maximum fine assessable would have totaled
$110,000.

        - In August 1996, the Houma District Office referred a violation for civil penalty for
an inoperative gas detector in the mud pit room2 on a drilling rig. The District Office’s
referral identified this as a serious violation that could have resulted in a fire or an explosion
with loss of well control and/or human life. The violation period totaled 8 days, which began
the day drilling commenced, July 30,1996, and ended when the violation was identified and
the facility was shut in, August 6, 1996. The reviewing officer classified the violation at the
Category I level with an assessed period of 7 days. The Service’s criteria define a Category I
violation in part as involving a threat of injury to humans, whereas a Category II violation
involves a threat of “significant” injury to humans. The reviewing officer’s final decision
and case file did not identify any mitigating factors concerning this violation. The reviewing
officer said, regarding this violation, that he recalled several undocumented mitigating
factors, including his belief that the probability of an accident was very low because other
gas detectors, which could have possibly detected a gas leak, were nearby and that a
Category II level fine would therefore have been “excessive,” Concerning the violation
period of 8 days versus the assessed period of 7 days, the reviewing officer stated that the
drilling may have actually commenced on July 3 1 rather than July 30, but he did not provide
documentation to support this statement. The reviewing officer assessed this operator the


‘A mud pit room is where the drilling fluid is stored for circulation into the drilling bit. The drilling fluid
may contain poisonous or explosive gases when it comes up from the bottom of the drilling hole, so gas
detectors are required in the mudpit room.

                                                      6
minimum penalty assessable of $35,000 (the maximum amount assessable for this category
was $70,000). If the reviewing officer had classified this violation at the Category II level
based on a threat of significant injury and assessed an s-day period, the maximum fine
assessable would have totaled $120,000.

          - In August 1996, the Houma District Office referred a violation for bypassing a
surface safety valve over a 3-day period. The District’s referral did not identify the
operator’s previous violations at this facility but noted that the operator had an “average”
record of compliance. However, based on our review of the Service’s files, we found that
the operator had received 8 1 previous violations at this. facility over the prior 10 years,
which we concluded was a poor compliance history. The District Office’s referral identified
this as a “very serious” violation and said that “the threat of immediate danger to life and the
environment existed since the surface safety valve could not close.” The reviewing officer
classified the violation at the Category I level. Neither the reviewing officer’s final decision
nor the case file identified any mitigating factors concerning the violation. The reviewing
officer said that this violation was classified in the least severe category because the facility
was unmanned and that the probability of an accident and threat to human safety were
therefore low. However, the reviewing officer also acknowledged that if an accident had
occurred, the threat to the environment would be higher at an unmanned facility. The
reviewing officer assessed this operator a $15,000 penalty (the maximum amount assessable
for this category was $30,000). If the reviewing officer had classified the violation at the
Category II level based on the operator’s poor compliance history and the threat of
significant injury to personnel, the maximum fine assessable would have totaled $45,000.

We found that civil penalty assessments were not adequately documented and supported
because reviewing officers were not specifically required to document the basis for
determining a violations category in the Generalized Matrix and were not required to
document all mitigating factors considered when establishing civil penalty assessments. We
also found that assessments were made without consideration of an operator’s compliance
history because referrals were made without a compliance history or with a compliance
history that was incomplete. In addition, the Service did not require a peer or supervisory
review of civil penalty assessment case files to ensure that all decisions were well
documented and supported.

As a result of the documentation deficiencies cited, there was insufficient information for us
to determine whether civil penalties were assessed in a fair and consistent manner.
Specifically, we could not determine whether all mitigating factors were properly considered
and whether tines were assessed at the appropriate level as indicated by the Generalized
Matrix. Without complete documentation supporting the reviewing officers’ decisions, there
was no assurance that penalty assessment decisions were made in accordance with the Code
of Federal Regulations (30 CFR 250.200-.206) or the requirements in the Service’s OCS
Civil/Criminal Penalties Program policy document.




                                                7
Civil Penalty Referrals

Although not all Incidents of Noncompliance warrant referral for civil penalty, the number
of referrals made by Service inspectors for serious violations has, in some cases, been
insignificant when compared with the number of violations. For example, in the 8 years
(1990-1997) since the civil penalties program was implemented, 358 Incidents of
Noncompliance were issued for pollution but only 10 were referred for civil penalties;
4,274 Incidents of Noncompliance were issued for unsafe and unworkmanlike operations
involving the threat of injury to humans or pollution but only 39 resulted in civil penalties;
and 304 Incidents of Noncompliance were issued relating to surface or subsurface safety
devices and emergency shut-down systems that were bypassed or blocked out of service
without a valid reason but only 107 were referred for civil penalties. (The number of
inspections reported by district, Incidents ofNoncompliance issued, and civil penalty cases
referred to the Region are in Appendix 1.)

In the original scope of our audit, we intended to perform a detailed review of Incidents of
Noncompliance to determine which violations merited civil penalties that were not referred.
However, based on our initial review, we found that Incidents ofNoncompliance, including
those issued for violation types which were most often referred, were not sufficiently
documented to make this determination. As stated previously, our review disclosed that the
most common types of violations approved for civil penalty assessment involved surface
and/or subsurface safety valves that were bypassed orwere inoperative, emergency shutdown
systems that were malfunctioning, or other safety procedures that were not followed by the
operator. We believe that the Service should require inspectors to document violations
sufficiently, especially of the type that have been most often referred, to independently
determine whether a referral is warranted and should provide inspectors necessary training
to perform this duty.

We found, based on interviews with 27 inspectors and supervisory inspectors at the Houma,
Lake Jackson, and New Orleans District Offices and the Corpus Christi Subdistrict Office,
the following information regarding civil penalty referrals: 11 inspectors disagreed with
program policy, stating that they believed that violations which were referred by other
inspectors did not warrant civil penalty referral, that program penalties were too punitive, and
that enforcement tools such as shut-ins were more preferable deterrents than civil penalties;
15 inspectors cited insufficient training in the areas of making civil penalty referrals and
properly documenting Incidents of Noncompliance; 8 inspectors cited insufficient policies
and procedures for identifying and referring violations that warranted civil penalty referrals;
and 5 inspectors said that they had to prove that the violation was knowing and willful in
order to refer a violation for civil penalty. Three of the 27 inspectors stated that they would
not be willing to make a civil penalty referral, and an additional 7 inspectors, each of whom
had at least 15 years of experience, had never initiated a civil penalty referral.

The Houma District Office had the most civil penalty referrals and was the only office visited
in which the District Office engineers prepared Compliance Review Forms. Seven of the
District Office’s nine inspectors had issued Incidents of Noncompliance that were referred

                                               8
for civil penalty assessments. These inspectors said that the Compliance Review Forms for
these referrals were prepared by one of the District Office engineers so that preparation of
the civil penalty assessment package did not detract from their inspection responsibilities or
require much of their time. The inspector usually discussed the violation with the engineer
and obtained any additional information relative to the violation that the engineer requested.
In addition, we found the Houma District Office generally made referrals within 3 months
of the issuance of the Incident of Noncompliance.

The Lake Jackson District, including its two subdistricts, made 20 referrals for civil penalty
assessments (2 at the District Office, 4 at the Corpus Christi Subdistrict Office, and 14 at the
Lake Charles Subdistrict Office). At the Lake Jackson District Office, we found that only
one of six inspectors interviewed supported the civil penalties program. The other
inspectors, none of whom made any referrals, indicated that the program either was an
attempt by the Service to generate additional revenues or was too punitive and that shutting
in facilities could achieve corrective actions and be more acceptable to industry. The
supervisory inspector and the District Office supervisor stated that they did not review all
Incidents of Noncompliance for initiation of civil penalty proceedings. The District Office
had submitted only two civil penalty referrals in the past 8 years, and both of these were
prepared by the same inspector. We found three operators that had significant Incidents of
Noncompliance issued by the District Office which were of the type that often resulted in
civil penalty referrals in other district offices. Because all three of the operators had poor
records of compliance, we believe that these violations should have been submitted to the
Regional Office for consideration of civil penalties. Both the District Office supervisor and
the supervisory inspector said that these violations should have been considered for civil
penalty referral. The two inspectors interviewed at the Corpus Christi Subdistrict Office
supported the civil penalties program, and both inspectors had made civil penalty referrals.
We did not interview inspectors at the Lake Charles Subdistrict Office.

The New Orleans District Office was not processing civil penalty referrals in a timely
manner. The Service’s Civil/Criminal Penalties Program Guidebook requires that a
Compliance Review Form be initiated within 60 days of the date of the violation or issuance
of the Incident of Noncompliance. The Gulf of Mexico Regional Director, in a June 6,1997,
memorandum, established a formal goal of completing the Compliance Review Form within
30 days of either issuing or receiving a reply to an Incident of Noncompliance. At the time
of our visit to the New Orleans District Office in September 1997, the District’s civil penalty
log identified 12 referrals initiated during fiscal year 1997, none of which had been
completed and sent to the Regional Supervisor for review and signature. Six of these
referrals had been initiated more than 6 months prior to our visit, and the remaining six had
been initiated more than 3 months prior to our visit. The District Office supervisor attributed
the backlog to two inspector positions that had been vacant but that had been filled only
recently and to inspectors who did not have the training necessary to adequately prepare and
document civil penalty referrals.




                                               9
As a result of not making all appropriate civil penalty referrals and not making referrals in
a timely manner, the program was applied inconsistently and the program’s effectiveness in
promoting safe and environmentally sound operations in the GulfofMexico was diminished,

The Service was aware of the need to improve the civil penalties program. As of September
1998, the Service conducted three annual program reviews that identified needed
improvements, including issuing penalties consistently, providing additional training, having
reviewing officers’ case files that were “complete,” and modifying the Technical Information
System to include information on civil penalty cases. To improve operations, the Service
prepared a draft revision of the Civil/Criminal Penalties Guidebook, was modifying the
Technical Information System to include civil penalty case information, and modified its
Generalized Matrix to clarify the categories which reviewing officers should use when
assessing civil penalties. In addition, our review of the criminal referrals process, which will
be discussed in a separate report, disclosed that the number of civil penalties referrals
increased by 78 during fiscal year 1998, with most (58 cases, or 74 percent) of the increased
referrals occurring at the New Orleans District Office.

Recommendations

We recommend the Director, Minerals Management Service:

     1. Ensure that reviewing officers document all conclusions and the bases for the
conclusions in their case files, including the basis for determining the category of the
violation in the Generalized Matrix, the reasons for any differences between the violation
periods and the assessment periods, and all determinations regarding the operator’s
compliance history. Also, any mitigating factors that were considered in arriving at the
assessed amounts should be identified and documented in detail.

    2. Institute supervisory or peer reviews to ensure that civil penalty assessments are
adequately documented.

     3. Ensure that inspectors receive sufficient training in determining when violations
should be referred for civil penalties and in sufficiently documenting the violation on the
Incidents of Noncompliance.

     4. Direct Service managers to provide sufficient supervision and support to inspectors
to ensure that appropriate violations are referred for civil penalties. In that regard, the
Service should consider the Houma District Office’s procedure of having a District engineer
prepare the Compliance Review Form.

Minerals Management Service Response and Office of Inspector General
Reply
In the February 22,1999, response (Appendix 4) to the draft report from the Acting Director,
Minerals Management Service, the Service concurred with all four recommendations.

                                               10
Subsequent to the Service’s response, Bureau officials provided us with additional
information. Based on the response and additional information provided, we consider
Recommendations 1, 2, and 4 resolved but not implemented and Recommendation 3
resolved and implemented. Accordingly, the three unimplemented recommendations will
be referred to the Assistant Secretary for Policy, Management and Budget for tracking of
implementation (see Appendix 5).

Recommendation 1. Concurrence.

In its response, the Service stated that based on its prior internal reviews, it “revised the
guidelines for assessing civil penalties, stressing the importance of documenting completely
the rationale for determining the need for, and amount of, a civil penalty.” In addition, the
Service stated that it held training sessions and meetings with all reviewing officers, most
recently in January 1999, “to discuss the need for detailed documentation” and was “in the
process of developing a computerized information system to provide the Reviewing Officer
with additional information to support civil penalty assessments.” Subsequent to the
response, Service officials told us that the computerized system would be fully
implemented by May 1, 1999.

Recommendation 2. Concurrence.

In its response, the Service stated that its “new guidebook for processing civil penalties
requires MMS [Minerals Management Service] Reviewing Officers to discuss civil penalties
with other Reviewing Officers.” The response further stated, “The new computerized
information system will provide MMS civil penalty coordinators, supervisors, and managers
online access to each of the civil penalty case tiles for review and comment.” In addition,
Service officials subsequently told us that the new “Guidebook” states that the rationale for
determining the penalty amount “must be included in the case file” and that the “Guidebook”
would be finalized by May 1, 1999.

Recommendation 3. Concurrence.

In its response, the Service stated that “a team consisting of representatives from the
Solicitor’s Office, MMS [Minerals Management Service] Headquarters, and both the Gulf
ofMexico and Pacific Regions, conducted meetings/training sessions in every MMS District
Office ” during 1997 and 1998 “to provide information on when and how to forward
violations for civil penalty review.” The Service further stated that it “will conduct refresher
training sessions on an annual basis.” In addition, the Service stated that it had “formed a
team,” as a result of an internal review, to review the problem of documenting and issuing
Incidences of Noncompliance and that a final team report would be issued. Subsequent to
the response, Service officials told us that in lieu of a report, the Service incorporated the
team’s recommendations into a new National Potential Incidences of Noncompliance List
and Guidelines, which was published and was posted on the Service’s Internet Home Page.




                                               11
Recommendation 4. Concurrence.

In its response, the Service stated that at its January 1999 annual review meeting, it “agreed
that the Regional Supervisor and the District Supervisors must meet to decide which
violations fall under the MMS [Minerals Management Service] policy outlined in both the
MMS Manual Chapter and Guidebook” and that the supervisors will meet with the inspectors
“‘to ensure that appropriate violations are referred for civil penalties.“’ In addition, the
Service stated that it “will use the new computerized information system to monitor
violations for civil penalty review.” Subsequent to the response, Service officials told us that
the first meeting was held in January 1999 and the official established a quarterly meeting
schedule to discuss violations which should be referred for civil penalties.

Additional Comments on Audit Report

The Service also provided comments on the audit report, which we considered and
incorporated into our final report as appropriate. The main issues involved conduct of the
audit survey, the survey’s time period, and lack of recognition of the Service’s internal
reviews and subsequent improvements made. The specific comments and our replies are
as follows:

        Minerals Management Service Comment. The Service stated that it was
“disappointed with. . how the review was conducted.” The Service further stated that the
review was conducted by two audit teams, “a Headquarters Team and a Regional Team,” but
that “no information gathered by the Headquarters Team was included in the report.”
Additionally, the Service stated: “In fact, the Headquarters OIG [Office of Inspector
General] Team stated that since MMS [Minerals Management Service] was in the process
of making significant changes to improve the civil penalties program, they would
recommend that the audit focus on the criminal referral issue. The Headquarters OIG Team
assured MMS that, at a minimum, the report would include a summary of the ongoing work
MMS was conducting to improve the program.”

        Office of Inspector General Reply. Our audit survey was accomplished under the
direction of the Director of Performance Audits; performed by a Senior Auditor, an Auditor-
in-Charge, and one staffmember from the Lakewood, Colorado, office; and assisted by two
staff members from the Arlington, Virginia, office (not a Headquarters team) during the
initial stages of the survey. The survey work performed by all staff was reviewed by the
Senior Auditor. Based on the preliminary survey results, decisions were made regarding
areas to pursue during the remaining portion of the audit survey. We decided to defer the
criminal referral portion of the review until the civil penalty portion was completed. We are
completing our review of the criminal referral process, and, as stated in the Introduction of
this report, the results of that review will be addressed in a separate report.

        Minerals Management Service Comment. The Service stated that it “would like
stronger recognition of our efforts to identify and correct weaknesses in the [civil penalties]
program.” The Service further stated that “the report does not clearly state, up front, the

                                               12
period of time [case files through September 30, 19971 the review/investigation covered.”
In addition, the Service stated that the survey repoti “does not adequately recognize any
improvements made to the program during 1997 - 1998” as a result of a 1995 and
subsequent reviews.

         Office of Inspector General Reply. The Scope of Survey section of the report
describes the period of time for our records review, and we have modified the section to
clarify the scope of our review. Our selection of the 26 reviewing officers’ closed case files
consisted of those with final decisions made as follows: 1 for 1993, 1 for 1995, 12 for 1996,
and 12 for 1997. Thus, 24 of the 26 cases were closed after the Service’s 1995 internal
review. Our review did not find significant improvements in documenting reviewing
officers’ decisions, since we found one or more supporting documentation deficiencies in 22
of the 24 post-1995 cases. Regarding civil penalty referrals made by the field offices, we did
not find a pattern of increases in the number of cases referred annually as of September 30,
1997. Specifically, there were 13 referrals in 1993,41 in 1994, 13 in 1995,48 in 1996, and
28 in 1997. In addition, as part of our review of the criminal referral process, we noted that
the number of civil penalty referrals by the Gulf of Mexico Regional Office’s field offices
increased by 78 referrals during fiscal year 1998. However, most (58 cases, or 74 percent)
of the increased referrals occurred at the New Orleans District Office. Therefore, we believe
that additional improvements to both documenting reviewing officers’ case files and
referring violations for civil penalties are needed.

Since the report’s recommendations are considered resolved, no further response to the
Office of Inspector General is required (see Appendix 4).

The legislation, as amended, creating the Office of Inspector General requires semiannual
reporting to the Congress on all audit reports issued, actions taken to implement audit
recommendations, and identification ofeach significant recommendation on which corrective
action has not been taken

We appreciate the, assistance of Service personnel in the conduct of our audit.




                                              13
                                                                        APPENDIX 1

                   GULF OF MEXICO REGIONAL OFFICE
                       INSPECTIONS CONDUCTED,
                 INCIDENTS OF NONCOMPLIANCE ISSUED,
                  AND CIVIL PENALTY CASES REFERRED
                     FOR FISCAL YEARS 1990 TO 1997

                                 Number                   Incidents of     Civil
         Inspection                 of       Inspections Noncompliance Penalty Cases
           Office               InsDectors* Conducted       Issued       Referred

Houma District                       11            21,777      11,464       58

Lafayette District                   13            18,409      11,437       43

Lake Jackson District                 6                5,036    1,596        2

 Corpus Christi Subdistrict           3                4,727     539         4

 Lake Charles Subdistrict             5                6,443    3,085       14

New Orleans District                 12            17,086       4.267      2 2

 Total                               g             73,478      32.388      143




*Number of inspectors as of September 30, 1997.

                                                  14
                                                                                                     APPENDIX 2
                          MINERALS MANAGEMENT SERVICE’S
                        GENERALIZED MATRIX FOR DETERMINING
                            CIVIL PENALTY ASSESSMENTS
                                    JANUARY 1996*
 Enforcement Code                       Category I                    Category II                Category III

 W - Warning                            $1,000 - 10,000               $3,000 - 15,000            $ 5,000 - 20,000

 C - Component Shut-m                   $3,000 - 10,000               $5,000 - 15,000            $10,000 - 20.000

 S - Facility Shut-in                   $5,000 - 10,000               $10,000 - 15,000           $15,000 - 20.000

 Category I                        Category II                                  Category III
 Threat of injury to humans.       Threat of sigruficant injury to humans       Serious injury to humans or loss of
 Threat of harm or damage to       or actual injury involving                   human life. Injury caused substantial
 the marine or coastal              incapacitation of less than 72 hours.       impairment of a bodily function or
 environment. including            Injury threat involved the potential for     incapacitation over 72 hours (that is,
 mammals, fish, and other          substantial impairment of a bodily           lost time accident). Harm or damage to
 aquatic life. Threat of           function or unit (that is, lost time         the marine or coastal envnonment,
 pollution involving potential     accident). Threat to aquatic life            including mammals, fish, and other
 liquid hydrocarbon spillage of    involving numerous individuals or            aquatic life. Harm to aquatic life
 under 200 barrels over a          endangered/threatened species. Actual        involved numerous individuals or
 period of 30 days. Threat, no     pollution under 200 barrels or threat of     involved endangered/threatened species,
 damage to any mineral             pollution involving a potential liquid       or pollution caused liquid hydrocarbon
 deposit. First time offense or    hydrocarbon spillage of over 200             spillage of over 200 barrels during a
 second offense with lengthy       barrels over a period of 30 days. Minor     period of 30 days. Damage to any
 interval since first offense.     damage to any mineral deposit.               mineral deposit. Substantial decrease in
 Excellent/above average            Second/third offense for same               ultimate recovery. Multiple offender;
 record of compliance.             violation. Average record of                 multiple violations. Poor record of
                                   compliance.                                  compliance.


If it is determined that the case warrants the assessment of a civil penalty, the reviewing officer
considers a variety of factors in establishing the proposed assessment, including the following:

  (1)   A determination as to whether the case involved a threat or actual harm or damage.
  (2)   Compliance history of the company.
  (3)   Precedents set by similar cases.
  (4)   Financial benefit derived by the company from the violation.
  (5)   Severity of the violations.
  (6)   Duration and number of violations.

Once the proposed penalty has been assessed, the reviewing officer may consider the following
mitigating factors when determining the final assessment:

  (1) Company’s ability to pay.
  (2) Company’s willingness to cooperate during the incident/accident investigation.


 *Matrix and narrative based on information contained in OCS (Outer Continental Shelf) Civil/Criminal Penalties Program
policy document, dared January 1996.

                                                             15
                                                                APPENDIX 3

                   MINERALS LMANAGEMENT SERVICE
                    OFFICES VISITED OR CONTACTED

                   OFFICE                            LOCATION

National Offices
   Offshore Headquarters Office             Hemdon, Virginia

California
   Camarillo District Office*               Camarillo, California

Louisiana
   Gulf of Mexico Regional Office           New Orleans, Louisiana
   Houma District Office                    Bourg, Louisiana
   Lafayette District Office*               Lafayette, Louisiana
   New Orleans District Office              New Orleans, Louisiana

Texas
   Lake Jackson District Office             Lake Jackson, Texas
   Corpus Christi Subdistrict Office        Corpus Christi, Texas




*Contacted only.


                                       16
                                                                                    APPENDIX 4


                    United States Department of the Interior
                               MINERALS h4ANAGEMENT SERVICE
                                        Washingron, DC 20240




                                               FE0 2 2 1999



Memorandum

To:           Assistant Inspector General for Audits

Through:      Sylvia V. Baca
              Acting Assistant Seer

From:


Subject:      Office of Inspector General Draft Audit Report “Offshore Civil Penalties
              Program, Minerals Management Service” [C-IN-MOA-001-96(B)]

Thank you for the opportunity to respond to this draft report, Although we agree with the four
recommendations and have already implemented them, we believe the report does not adequately
reflect the work we have done in the past few years to improve the program. We’re sending you
our general comments on the audit findings and specific ones on the recommendations.

Please contact Bettine Montgomery at (202) 208-3976 if you have any further questions.



Attachment




                                               17
                                                                                       APPENDIX 4
                                                                                       Page 2 of 5




MINERALS MANAGEMENT SERVICE RESPONSE TO DRAFT SURVEY REPORT
“OFFSHORE CIVIL PENALTIES PROGRAM, MINERALS MANAGEMENT
SERVICE”


Audit Agency: Office of the Inspector General (OIG)

Report Number; C-IN-MOA-00 1-96(B)

We appreciate this additional opportunity to comment on the report. Once again, MMS wants to
restate that we are disappointed with both how the review was conducted, and the content of the
report. We do not disagree with the report’s findings, but we would like stronger recognition of
our own efforts to identify and correct weaknesses in the civil penalties program.

The audit was conducted by two teams of OIG auditors, a Headquarters Team and a Regional
Team. However, no information gathered by the Headquarters Team was included in the report.
In fact, the Headquarters OIG Team stated that since MMS was in the process of making
significant changes to improve the civil penalties program, they would recommend that the audit
focus only on the criminal referral issue. The Headquarters OIG Team assured MMS that, at a
minimum, the report would include a summary of the ongoing work h&IS was conducting to
improve the program. However, the report had no such summary.

MMS worked closely with both teams, providing detailed information on how the civil penalties
process works and making available all of the case files worked on to date. However, the
Regional Team’s report only focused on the older case tiles. They did not mention the newer
tiles, which were improving as a result of our 1995 internal review.

Further, the report does not clearly state, up front, the period of time the review/investigation
covered. This causes a problem throughout, especially as it relates to the program changes that
MMS has made through our own reviews of the program. The OIG used a database through
1997, yet they did not recognize the changes we made as a result of our internal reviews. With
the publication date of December 1998, the report infers throughout that the problems uncovered
by the OIG are continuing rather than noting that efforts to address these issues have been
underway for over 3 years and, in fact, improvements are evident.

The report does not adequately recognize any improvements made to the program in 1997-1998,
including: the development of new regulations streamlining the civil penalty process, published
in the Federal Register on August 8, 1997; the 1997 Notice to Lessees and Operators increasing
the amount of fines; the development of a computerized information system; and the publication
in the Federal Register and on the Internet of civil penalties paid.

In thesection on Recommendations, page 10, the report refers to the exit conference, noting that
the OIG considered our comments and revised the report as appropriate. The revisions did not
adequately reflect our comments at the exit conference. The report should refer to our



                                                18
                                                                                       APPENDIX 4
                                                                                        Page 3 of 5


                                                                                                    2

independent and ongoing review efforts up front or, at a minimum, where they identify the
problems. The only effort to do so is at the end of the Results section, the last paragraph on
page 9, which does not sufficiently address our extensive and continuing work to improve the
program.

The report should recognize that h4MS has aggressively reviewed the civil penalty program on
an annual basis. Many, if not all, of the problems identified in this report were also, almost
simultaneously, identified through these internal annual reviews. We have been working to
address these issues. The draft Guidance in development, as well as annual meetings and
training sessions with everyone from inspectors through the regional civil penalty coordinators
and reviewing officers, attest to this fact. Again, we do not wish to refute the findings of the
report. Rather, we would like stronger recognition of our efforts to identify and correct
weaknesses in the program. We provide the following information for your consideration for
inclusion in the report.

COMMENTS ON RECOMMENDATIONS

Recommention 1: Ensure that Reviewing Officers document all conclusions and the basis for
the conclusions in their case files, including the basis for determining the category of the
violation in the Generalized Matrix, the reasons for any differences between the violation periods
and the assessment periods, and all determinations regarding the operator’s compliance history.
Also, any mitigating factors that were considered in arriving at the assessed amounts should be
identified and documented in detail.

AGREE - The 1995 and 1996 MMS internal reviews of the Civil Penalty Program identified this
as an area for improvement. Based on the internal reviews, we revised the guidelines for
assessing civil penalties, stressing the importance of documenting completely the rationale for
determining the need for, and amount of, a civil penalty. We are in the process of developing a
computerized information system to provide the Reviewing Officer with additional information
to support civil penalty assessments. In addition, training sessions and meetings were held in
1996, 1997, and most recently, in January 1999, with the Department of the Interior’s Solicitor’s
Office and all of the MMS Reviewing Officers to discuss the need for detailed documentation.

The new computerized tracking system will provide one method of feedback to all the
individuals who forward a case for civil penalty consideration. This field will include an
explanation when a case is not forwarded past a certain point (from Chief Inspector through the
Reviewing Officer). In this way, the staff working on such cases will be provided the
opportunity to learn what is and is not appropriate for review and hold the decisionmakers in the
process accountable for thoughtful consideration of each referral.

ResDonsible Official: National Coordinator, OCS Civil Penalties Program
Target Date for ComDletion: Completed



                                                19
                                                                                           APPENDIX 4
                                                                                           Page 4 of 5




Recommendation 2: Institute supervisory or peer reviews to ensure that civil penalty
assessments are adequately documented.

AGREE - The new MMS guidebook for processing civil penalties requires MMS Reviewing
Officers to discuss civil penalty cases with other Reviewing Officers. This practice is routinely
conducted by all MMS Reviewing Officers. The Gulf of Mexico Region Reviewing Officers
work within the same office and assist each other in the development of each civil penalty case
file. The Pacific Region Reviewing Officer contacts the Reviewing Officers in the Gulf of
Mexico Region each time a case rile is assigned. The new computerized information system will
provide MMS civil penalty coordinators, supervisors, and managers online access to each of the
civil penalty case files for review and comment.

Resoonsible Official: National Coordinator, OCS Civil Penalties Program
Target Date for Comnletion: Completed

Recommendation 3: Ensure that inspectors receive sufficient training in determining when
violations should be referred for civil penalties and in sufficiently documenting the violation on
the Incidents of Noncompliance.

AGREE - The 1995 and 1996 MMS internal reviews identified this as an area for improvement.
As a result, a team consisting of representatives from the Solicitor’s Office, MMS Headquarters,
and both the Gulf of Mexico and Pacific Regions, conducted meetings/training sessions in every
MMS District Office to provide information on when and how to forward violations for civil
penalty review. Over a 3-week period in 1997 and 1998, this team visited all eight MMS District
offices, training over 95 percent of the appropriate staff. We will conduct refresher training
sessions on an annual basis. In addition, as a result of the 1995 internal civil penalty review, the
offshore inspection program formed a team to look into the problems associated with
documenting and issuing Incidents of Noncompliance. A final report from this team is due out
this Spring.

Resnonsible Official: National Coordinator, OCS Civil Penalties Program
Target Date for Completion: Completed and Ongoing

Recommendation 4: Direct Service managers to provide sufficient supervision and support to
inspectors to ensure that appropriate violations are referred for civil penalties. In that regard, the
Service should consider the Houma District Office’s procedure of having a District engineer
prepare the Compliance Review Form.

AGREE - The 1995 and 1996 MMS internal reviews identified this as an area for improvement.
At our recent January 1999 annual review meeting, we agreed that the Regional Supervisor and
the District Supervisors must meet to decide which violations fall under the MMS policy
outlined in both the MMS Manual Chapter and Guidebook. Following the meeting, the District
Supervisors will meet with all of the inspectors to “ensure that appropriate violations are referred


                                                   20
                                                                                         APPENDIX 4
                                                                                         Page 5 of 5



                                                                                                   4

for civil penalties.” In addition, we will use the new computerized information system to
monitor violations for civil penalty review. The new system requires MMS Inspectors, District
Management, and Reviewing Officers to provide rationale for not forwarding/assessing penalties
for violations that are identified by the Regional and District Supervisor for civil penalty review.
In terms of the recommendation related to the Compliance Review Form, the new streamlined
process for assessing civil penalties removed the requirement to complete a Compliance Review
Form. The new process uses the computerized information system to develop the initial part of
the civil penalty case file.

Resnonsible Official: National Coordinator, OCS Civil Penalties Program
Target Date for Comnletion: CompJeted




                                                 21
                                                              APPENDIX 5


              STATUS OF AUDIT REPORT RECOMMENDATIONS

Finding/Recommendation
        Reference                Status                  Action Required

    1, 2, and 4          Resolved; not        No further response to the Office of
                         implemented          Inspector General is required. The
                                              recommendations will be referred to
                                              the Assistant Secretary for Policy,
                                              Management and Budget for tracking
                                              of information.

                         Implemented.         No further action is required.

                                          .




                                  22
                  ILLEGAL OK WASTEFUL ACTIVITIES
                      SHOULD BE REPORTED TO
                 THE OFFICE OF INSPECTOR GENERAL


                             Internet/E-Mail Address

                                      www,oig.doi.gov


                      Within the Continental United States

U.S. Department of the Interior                         Our 24-hour
Office of Inspector General                             Telephone HOTLINE
1849 C Street, N.W.                                     l-800-424-508 1 or
Mail Stop 5341                                          (202) 208-5300
Washington, D. C . 20240

                                                        TDD for hearing impaired
                                                        (202) 208-2420 or
                                                        l-800-354-0996


                     Outside the Continental United States

                                     Caribbean Region

U.S. Department of the Interior                         (703) 235-9221
Office of Inspector General
Eastern Division - Investigations
4040 Fairfax Drive
Suite 303
Arlington, Virginia 22203

                                    North Pacific Region

U.S. Department of the Interior                         (67 1) 647-6060
Office of Inspector General
North Pacific Region
415 Chalan San Antonio
Baltej Pavilion, Suite 306
Tamuning, Guam 96911
  :
  m
       Toll Free Numbers:
  :     l-800-424-5081
  :     TDD l-800-354-0996
 :
 2
       ITS/Commercial Numbers:
 .:.    (202) 208-5300
 :      T’DD (202) 208-2420
 :
 :
 :
 m      HOTLINE
       1849 C Street, N.W.
 :
 :
 m
       Mail stop 5341
  3    Washington, D.C. 20240
  :
  :
  :
 *:
  :
:.
 :.
:
m
